Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the DeKalb County, Georgia, School System

Report No. GR-40-04-002


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS Office) to the DeKalb County, Georgia, School System (DCSS).  The purpose of the grant is to provide funding directly to the local jurisdiction for the hiring and deployment of career law enforcement officers in and around primary and secondary schools.  The COPS Office awarded the DCSS $1,375,000 to hire 11 new police officers to serve in the DeKalb County School System, Department of Public Safety.
We found the DCSS to be in material compliance with five of the six COPS grant requirements that we tested.  We reviewed the grantee's compliance with six essential grant conditions and found the grantee's budgeting for officers, hiring of officers, source of local matching funds, retention of officer positions, and types of community policing to be acceptable.  However, we found weaknesses in the area noted below.  As a result of these deficiencies, we question $2,986 in grant funds.1

The DCSS did not properly request grant funds because it:
1) requested and was reimbursed $2,986 for unallowable overtime costs and associated fringe benefits; 2) claimed costs for officers that were not the officers assigned to the grant; 3) claimed salaries and fringe benefits that were sometimes greater than approved by the COPS Office; and 4) did not reduce the federal share of costs claimed each year of the grant as required, resulting in funds being drawn down too early.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.